APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10742
Non-Argument Calendar
D.C. Docket No. 9:16-cv-81975-BB
MATT FRIEDMAN, an individual, SCALE MEDIA
INC., a New York corporation,
Plaintiffs - Appellees,
versus
NICHOLAS SCHIANO, d.b.a. HotWireMedia.com,
M&M ENTERTAINMENT, INC., a Florida
corporation, BARMITZVAHS.COM, INC., a Florida
corporation,
Defendants - Appellants.
Appeal from the United States District Court for the
Southern District of Florida
(June 7, 2019)
Before MARTIN, NEWSOM, and BRANCH, Circuit
1a

Judges.
PER CURIAM:
This appeal stems from the district court’s
refusal to vacate an approximately $1.3 million default
judgment. The appeal turns on two issues: (1) whether
the defendant was properly served, and (2) whether
the defendant had good cause for failing to appear. The
district court found, as a factual matter, that the
defendant was properly served. It further refused to
set aside the default judgment after concluding the
defendant, despite knowing about the lawsuit, had not
adequately explained his months-long failure to
contact the court. We affirm.
I.
A.
On December 8, 2016, Matt Friedman and his
company, Scale Media, Inc., sued Nicholas Schiano and
his companies, M&M Entertainment, Inc. and
Barmitzvahs.com, Inc.1 Friedman asserted two causes
of action, one common law (defamation per se) and one
statutory (violation of the Florida Deceptive and
Unfair Trade Practices Act). Friedman alleged that
Schiano posted defamatory messages on numerous

1

As will become clear, the relevant parties are Friedman
and Schiano. For ease, and because the two individuals had
complete control over the other parties in this case, we generally
refer only to the individuals.

2a

websites, using words like “fraud,” “scam,” or “crime”
over 325 times to describe Friedman. Attached to the
complaint were numerous instances of Schiano’s
alleged defamation, including a screenshot of the Scale
Media webpage on which Schiano had superimposed a
large warning sign that said “SCAM” and the message
“SCAMS ARE CRIMES | HELP STOP THEM.”
Friedman contended Schiano had falsely accused him
of credit card fraud, cybercrimes, Internet scams,
phone sales fraud, theft, and hacking Schiano’s
website. As Friedman later explained at a hearing,
“Schiano was essentially able to flood the Internet with
so many of these defamatory websites that if anyone
Googled [Friedman’s] name . . . all they would see
would be fraud and scam alerts.” The root of this
animus? As Friedman tells it, the two men had
previously worked together, and when Friedman left
to start his own related business, Schiano did not take
kindly to the competition.
Schiano did not answer or otherwise respond to
the complaint. On January 6, 2017, the district court
clerk entered a default against him. See Fed. R. Civ. P.
55(a). On the day of the default, the district court
entered a preliminary injunction, making findings of
facts that Schiano’s statements constituted defamation
per se and requiring all defamatory messages be
removed. Friedman moved, pursuant to Rule 55(b) of
the Federal Rules of Civil Procedure,2 for a final

2

Rule 55(b)(2) provides that if the plaintiff does not seek
a sum certain, he must apply to the court for a default judgment.
The court may then “conduct hearings or make referrals—

3a

default judgment. The district court granted that
motion and entered a final default judgment against
Schiano (and made its preliminary injunction
permanent) on January 17, 2017.
On March 2, 2017, the district court held a
hearing on damages. At that hearing, Friedman
informed the court that, although some of the websites
had been taken down, some websites remained live;
Friedman was working with third-party providers to
take them down. Friedman testified that after he left
to compete with Schiano, Schiano “went berserk. When
he found out that we had opened our own company, his
immediate reaction was to call me, my family, my
mom, my dad, my brother, harass us, telling us that he
was going to destroy our lives, telling me he was going
to pay me a visit and hurt me.” Friedman also played
a voicemail message left by Schiano in which he said:
[Y]ou can be sure I’m a f—ing hell of a lot
better at getting number one results in
f—ing Google then you’ll ever be. . . . I’m
a f—ing millionaire. I’m f—ing
semi-retired. I got nothing better to do
than all day now to stay on the f—ing
Internet and ruin your f—ing life.

preserving any federal statutory right to a jury trial—when, to
enter or effectuate judgment, it needs to: (A) conduct an
accounting; (B) determine the amount of damages; (C) establish
the truth of any allegation by evidence; or (D) investigate any
other matter.”

4a

Schiano also asserted, in this voicemail and another,
that he was forwarding information to the police.
Friedman further testified that Schiano would post
pictures of his family members (including his one-year
old nephew), his parents’ addresses (including when
they moved), and his bank account information. As he
put it, “There’s not anytime I get together with my
family or anytime I see anybody and this isn’t what
they talk about. Every time, they ask me.” Schiano’s
remarks about Friedman came up when anyone
Googled Friedman’s name, Friedman said, so he lost
out on dates, friends, and business. In fact, Friedman
said, Schiano’s conduct resulted in Friedman closing
his party-planning business completely.
On April 28, 2017, the district court entered a
judgment on damages,3 fees, and costs, awarding
Friedman $640,000 in compensatory damages and
$640,000 in punitive damages.4 Pursuant to Fla. Stat.
§ 501.2105, the court also awarded attorneys’ fees and
costs in the amount of $30,535.08. The court expressly
found that Friedman had submitted “clear and
convincing evidence . . . of intentional misconduct
sufficient to support an award of punitive damages.”
The court credited the testimony recounted above. It
3

The court limited the damages award to the defamation
cause of action; to prevent the possibility of double recovery, it did
not permit recovery under the Florida Deceptive and Unfair Trade
Practices Act, as any damages would have arisen from the same
harmful conduct.
4

Fla. Stat. § 768.72 authorizes punitive damages in cases
involving “intentional misconduct or gross negligence.”

5a

further found, as a matter of fact, that Schiano had
committed at least 64 separate instances of
defamation, posting on at least 30 different websites
and defaming Friedman to at least 34 individuals.
B.
On March 23, 2017—before the damages award
but well after the final default judgment
order—Schiano sent an email to the court. The email
began: “I did not receive notice of this law suit. I do not
live at my home of record. I rent my home to 3
different strangers.” He explained that he had learned
of the lawsuit only because his email account had been
shut down by the court’s injunction. He asserted the
things he posted online were true and insisted that
“Friedman has committed slander on me, not me on
him.” Indeed, Schiano claimed Friedman had falsely
accused him of child molestation, rape, and drug
addiction. He also asserted “extreme financial
hardship” and inability to afford an attorney.
Nevertheless, he requested “an appearance in court
and an appeal to your January 6, 2016 order” (the
preliminary injunction).5
On May 19, 2017, Schiano, through counsel,
filed a motion under Rule 60 of the Federal Rules of

5

It is worth noting that although Schiano later said he
was an “internet guy” who never checks his physical mail, he also
“claimed that he never received [Friedman’s] November 23, 2016
demand letter because it was sent to his ‘spam’ email, which he
claims to never check.”

6a

Civil Procedure to vacate the default judgment and
judgment on damages and fees. To explain his late
arrival to the case, Schiano contended he was never
properly served. The returns of service showed that
the complaints and other documents were served on
Katya Skripova, a resident of 3840 NE 17th Avenue,
Oakland Park, Florida 33334 (“3840”).6 Schiano
claimed in his Rule 60 motion, and still does on appeal,
that Skripova is a “virtual stranger” who happened to
be his tenant at 3840. Schiano asserted that “Skripova
is a Russian immigrant who speaks only broken
English.” At the time of service, Schiano claimed, he
resided with his girlfriend at a different property. In
addition, Schiano made various arguments that he
again presses on appeal and that we address below.
The motion to vacate was fully briefed. As part
of that briefing, Friedman submitted an affidavit from
the process server. The process server averred that he
confirmed 3840 was Schiano’s usual place of abode. He
“specifically asked Ms. Skripova whether Mr. Schiano
resided at [3840] on the date of service. She confirmed
that he did.” When he asked whether Schiano was
home, “Skripova explained that while Mr. Schiano
currently lived at [3840] with her that he was not
home at the moment, but was expected to return home
later that afternoon.” And “[w]hile Ms. Skripova had a
slight foreign accent, it was apparent that she fully
understood and comprehended our discussion and the

6

Schiano is the registered agent of both corporate
defendants, M&M Entertainment, Inc., and Barmitzvahs.com,
Inc., and 3840 was the address of service for both corporations.

7a

representations she was making regarding Mr.
Schiano residing at” 3840. Thus, the process server
believed Skripova understood when he explained “the
nature of the documents being served on her for Mr.
Schiano,” and he believed her when “she confirmed she
would deliver them to Mr. Schiano.”
After briefing and oral argument (at which
Schiano testified), the district court denied the motion
to vacate the default judgment. The court first
explained that, despite Schiano’s request, Rule 55(c) of
the Federal Rules of Civil Procedure was an improper
basis for vacating the judgment. That Rule provides,
“The court may set aside an entry of default for good
cause, and it may set aside a final default judgment
under Rule 60(b).” Although the clerk had
automatically entered a default in the case, the court
had directed the clerk to enter a default judgment,
which Rule 55(c) itself says is evaluated for vacatur
under Rule 60(b). Thus, the court explained, Schiano
needed to meet one of the six bases for relief under
Rule 60(b).7 The court noted two of those bases
potentially applied here: the judgment being void for

7

The six bases are: (1) “mistake, inadvertence, surprise,
or excusable neglect;” (2) “newly discovered evidence that, with
reasonable diligence, could not have been discovered in time to
move for a new trial under Rule 59(b);” (3) “fraud (whether
previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party;” (4) “the judgment is void;” (5)
“the judgment has been satisfied, released, or discharged; it is
based on an earlier judgment that has been reversed or vacated;
or applying it prospectively is no longer equitable;” and (6) “any
other reason that justifies relief.”

8a

lack of personal jurisdiction (Rule 60(b)(4)), or
“mistake inadvertence, surprise, or excusable neglect”
(Rule 60(b)(1)).8
With respect to Rule 60(b)(4) and personal jurisdiction,
the court found Schiano had been properly served.
Because the verified returns of service were valid on
their face, the court found that Schiano bore the
burden under Florida law of proving by clear and
convincing evidence that 3840 was not his usual place
of abode at the time of service. The court concluded he
did not meet that burden.
Although Schiano and his girlfriend submitted
affidavits and Schiano testified he had not been living
at 3840 during the relevant time, the court expressly
found the evidence was not credible.
Rather, evidence in the record indicated Schiano
was aware of the lawsuit in January of 2017. For
example, a January 17, 2017, email from a webhost
asked Schiano to remove sites named in the court
order—an email to which Schiano responded the same
day. Schiano also received an email on February 16,
2017, that confirmed receipt of a fax Schiano had sent
the day before regarding the “legal lock” on
8

The court explained that a “party [] cannot seek relief
under both Rule 60(b)(1) and Rule 60(b)(6),” the Rule’s “catch-all
provision.” See Solaroll Shade & Shutter Corp. v. BioEnergy Sys.,
Inc., 803 F.2d 1130, 1133 (11th Cir. 1986) (“Although 60(b)(6)
provides a residual equitable authority for vacating judgments,
this Court consistently has held that 60(b)(1) and (b)(6) are
mutually exclusive.”).

9a

Barmitzvahs.com. “Thus, not only was Schiano well
aware of the Court’s orders and injunctions, he was
actively emailing his service providers and inquiring
about what he could do about them.” In contrast, the
court found “no reason to doubt the veracity of the
process server’s affidavit or the statements of Ms.
Skripova contained within them.” Summarizing, the
district court noted that although Schiano offered
“self-serving affidavits and testimony to support
Schiano’s position that he did not live at [3840] at the
time of service, the Court finds that such evidence
lacks credibility in light of other, objective evidence in
the record that suggests [Schiano] had knowledge of
the lawsuit as early as January 2017.”
With respect to excusable neglect pursuant to
Rule 60(b)(1), the court examined the totality of the
circumstances. It noted that Schiano would suffer
serious financial loss, which weighed in his favor. But
the court also noted that it had calculated the damages
following notice and a full evidentiary hearing, so it
rejected Schiano’s claim he would prevail on the
merits. Schiano continued to support his truth defense
only through his own conclusory assertions in his
March 23, 2017, email to the district court. The court
further explained that Friedman would suffer
prejudice if the judgment were vacated, as “setting
aside the Court’s orders and judgments would result
not only in re-litigating the case, but also in the
reactivation of at least thirty defamatory websites that
this Court has already found caused [Friedman]
reputational and monetary harm.” Finally, for reasons
recounted above, the court also concluded Schiano had
10a

not given good cause for failure to make a timely
appearance. Beyond service of the complaint,
Friedman sent copies of the following to 3840: motion
for entry of clerk’s default; motion for preliminary
injunction; motion for default judgment; motion for
contempt; and supplemental memorandum on
damages. From the date of service, it took Schiano over
three months to contact the court and over five months
to file his motion; from the date of the January 17,
2017, email to the webhost, it took Schiano more than
two months to reach out to the court and more than
four months to file the motion; and from the date of the
February 15, 2017, fax, it took Schiano over a month to
reach out to the court and more than three months to
file the motion. In any of the scenarios, the court found
the delay was not excusable.
The district court also found it notable that
Schiano “represented to various government agencies”
that 3840 was his address and the address of the
registered agent of the corporate defendants. Active
filings with the Florida Department of State indicated
that 3840 was the “principal place of business,
registered agent address, and mailing address” of the
corporate defendants. As recently as “February 7,
2017, Schiano named himself the registered agent for
BarMitzvahs.com, Inc. and specified [3840] as the
mailing address for the corporation and the registered
agent.”9As the registered agent for the corporate

9

“What’s more,” said the district court, “in two separate
filings with the Broward County Property Appraiser, Schiano
provided [3840] as his personal mailing address. . . . In fact,

11a

defendants “Schiano had, and continues to have, an
obligation to keep the authorities apprised of the
registered agent and registered office for service, and
to be available for such service.”
The court concluded: “To vacate the judgments
even though [Schiano] make[s] a hollow claim that [he]
did not receive mail at [his] last known address would
be to reward [him] for [his] failure to adhere to [his]
obligations.” Thus, the court found no excusable
neglect and declined to vacate the judgment.
Schiano then moved to alter or amend the
judgment under Rule 59(e) of the Federal Rules of
Civil Procedure—a request the district court denied in
a written order. This appeal followed.
II.
Schiano first challenges the default judgment,
asserting it is void for lack of valid service of process
and lack of personal jurisdiction.
A.
“We review the district court’s ruling on a Rule
Schiano claimed [3840] as his legal homestead, a status for which
he obtained tax benefits from. . . . A warranty deed executed in
February 2017 also shows that Schiano identified [3840] as his
then-current address. Corporate Defendants, and Schiano in
particular, cannot expect to hold [3840] out to the public to be
their legal address—and receive benefits from doing so—without
accepting the concomitant responsibilities.”

12a

60(b)(4) motion to set aside default judgment for
voidness de novo.” Architectural Ingenieria Siglo XXI,
LLC v. Dominican Republic, 788 F.3d 1329, 1337 (11th
Cir. 2015). We review for clear error any factual
findings regarding sufficiency of service. See Fed. R.
Civ. 52(a)(6);10 Prewitt Enters., Inc. v. Org. of Petrol.
Exporting Countries, 353 F.3d 916, 920 (11th Cir.
2003). “When findings are based on determinations
regarding the credibility of witnesses, Rule 52(a)
demands even greater deference to the trial court’s
findings; for only the trial judge can be aware of the
variations in demeanor and tone of voice that bear so
heavily on the listener’s understanding of and belief in
what is said.” Anderson v. City of Bessemer City, N.C.,
470 U.S. 564, 575 (1985).
B.
Rule 4(e) of the Federal Rules of Civil Procedure
governs service of process within a judicial district of
the United States. Under Rule 4(e)(1), an individual
may be served by “following state law for serving a
summons in an action brought in courts of general
jurisdiction in the state where the district court is
located or where service is made.” In this case, that
state is Florida, whose service-of-process statute
provides, “Service of original process is made by

10

“Findings of fact, whether based on oral or other
evidence, must not be set aside unless clearly erroneous, and the
reviewing court must give due regard to the trial court’s
opportunity to judge the witnesses’ credibility.” Fed. R. Civ. P.
52(a)(6).

13a

delivering a copy of it to the person to be served with
a copy of the complaint, petition, or other initial
pleading or paper or by leaving the copies at his or her
usual place of abode with any person residing therein
who is 15 years of age or older and informing the
person of their contents.” Fla. Stat. § 48.031(1)(a). A
corporation may be served by serving its registered
agent. Id. § 48.081(3)(a). “If the address for the
registered agent . . . is a residence . . ., service on the
corporation may be made by serving the registered
agent . . . in accordance with s. 48.031.” Id. §
48.081(3)(b).
The process server served Schiano via substitute
service on his tenant, Skripova. Schiano makes much
of the fact that Skripova was merely a “rental tenant”
who had no relation to him or his corporations. But the
Florida statute requires only that service be effected
on “any person,” 15 years of age or older, “residing” at
the defendant’s usual place of abode. Fla. Stat. §
48.031(1)(a).11 A tenant, unlike a temporary
houseguest, is a person “residing therein” for purposes
of the statute. Cf. Magazine v. Bedoya, 475 So. 2d
1035, 1035 (Fla. 3d DCA 1985) (holding a six-week
visit was long enough to be a “person residing therein”
for purposes of § 48.031(1)(a)).

11

The statute previously required substitute service on
“some person of the family over fifteen years of age.” See
Wakeman v. Farish, 356 So. 2d 1323, 1324 (Fla. 4th DCA 1978)
(quoting Fla. Stat. § 48.031 (1975)). That the Florida Legislature
amended it to say “any person” severely undermines Schiano’s
argument.

14a

The question, then, is whether 3840 was
Schiano’s “usual place of abode”— where he physically
lived at the time of service. See Shurman v. Atl. Mortg.
& Inv. Corp., 795 So. 2d 952, 956 (Fla. 2001). “While a
plaintiff bears the ultimate burden of proving valid
service of process, a ‘return of service that is regular on
its face is presumed to be valid absent clear and
convincing evidence presented to the contrary.’”
Robles-Martinez v. Diaz, Reus & Targ, LLP, 88 So. 3d
177, 179 (Fla. 3d DCA 2011) (quoting Telf Corp. v.
Gomez, 671 So. 2d 818, 818 (Fla. 3d DCA 1996))
(internal citation omitted). “Regular on its face” means
the return of service attests to all the information
required by the service statute. See id. at 180. This
information includes a defendant’s usual place of
abode. See id.; Busman v. State, Dep’t of Revenue, 905
So. 2d 956, 957–58 (Fla. 3d DCA 2005) (requiring
defendant to present clear and convincing evidence
that place of regular-on-its-face service was not usual
place of abode).
The returns in this case were regular on their
face: they named Schiano (in his individual capacity or
as a registered agent); they stated the documents that
were delivered; they identified Skripova as a
co-resident 15 years of age or older to whom the
documents were delivered; and they listed 3840 as
Schiano’s usual place of abode. The burden thus
shifted to Schiano to invalidate the returns via clear
and convincing evidence.
Clear and convincing evidence “must be of such
weight that it produces in the mind of the trier of fact
15a

a firm belief or conviction, without hesitancy, as to the
truth of the allegations sought to be established.”
Slomowitz v. Walker, 429 So. 2d 797, 800 (Fla. 4th
DCA 1983). Under this exacting standard, we cannot
say the district court clearly erred in concluding that
Schiano failed to prove that 3840 was not his usual
place of abode.
“The burden of proof in a Rule 60(b)(4) motion
rests with the defendant.” In re Worldwide Web Sys.,
Inc., 328 F.3d 1291, 1298–99 (11th Cir. 2003). As
Schiano admits, the only affidavits regarding where
Schiano lived at the time were his and his girlfriend’s.
But the district court expressly found the affidavits not
credible. In particular, the court found that “not only
was Schiano well aware of the Court’s orders and
injunctions, he was actively emailing his service
providers and inquiring about what he could do about
them.” “On the other hand, the Court has no reason to
doubt the veracity of the process server’s affidavit or
the statements of Ms. Skripova contained within
them.” These findings are due significant deference, in
light of our standard of review and what Florida law
requires Schiano to produce in order to invalidate the
return of service.
Schiano says the process server’s post-service
affidavit was “dubious” on its face. He speculates that
the process server did not have enough time to
evaluate whether Skripova understood the nature of

16a

the documents.12 But the district court did not need to
agree with that speculation, nor did it need to agree
with the unsupported, contested assertion that
Skripova spoke only “broken English.” Likewise,
Schiano’s argument that Skripova’s status as a tenant
“clearly and convincingly” shows 3840 was not
Schiano’s usual place of abode because “very often
when an owner rents out his or her property the owner
resides somewhere else” is unsupported and
unconvincing.
Schiano also suggests the evidence he presented
was “unimpeached.” To the contrary, Friedman
submitted a plethora of evidence in support of his
contention that 3840 was Schiano’s usual place of
abode, and Schiano’s driver license—issued on
November 16, 2016, 26 days before service—listed
3840 as his address. The district court further noted
that a “warranty deed executed in February 2017 []
shows that Schiano identified [3840] as his
then-current address.” Schiano also identified 3840 as
his homestead and received concomitant tax benefits.13
12

Schiano states the affidavit was based on hearsay from
declarant Skripova, although he does not seem to argue that the
hearsay itself invalidates the affidavit.
13

Schiano argues in Part I of his reply brief that Friedman
took the opposite position on Schiano’s homestead in bankruptcy
proceedings, which Schiano initiated in January of 2018.
Specifically, Schiano contends the trustee took the position, which
Friedman joined, that Schiano was not living at 3840 but was
instead living with his girlfriend. Schiano says we should
judicially estop Friedman from taking a contrary position in this
proceeding. As a threshold matter, the bankruptcy court

17a

And “in two separate filings with the Broward County
Property Appraiser, Schiano provided [3840] as his
personal mailing address.” The corporate defendants’
“active filings with the Florida Department of State
indicate that [3840] is their principal place of business,
registered agent address, and mailing address.”

authorized Schiano to pursue this appeal, relieving him from the
automatic stay. See Doc. 22 at 2, No. 18-10928-JKO (S.D. Fla.
Bankr.). As to Schiano’s argument, the time periods in the two
cases are different, and the “conflict” in positions is nebulous at
best. In a May 16, 2018, meeting of creditors, Schiano claimed to
be living at 3840. See Doc. 116 at 14, No. 18-10928-JKO (S.D. Fla.
Bankr.). He also said that he was living there when he filed for
bankruptcy but that, in the preceding months, he “could have
been living” at 3840, or he “could have been living with [his]
girlfriend” because he goes “back and forth.” Id. at 17–18. What
matters here is whether he lived at 3840 at the time of service in
this lawsuit: December 12, 2016. These portions of the bankruptcy
proceedings do not shine any further light on that issue or on
Friedman’s position on it.
But all of that is beside the point. We decline to consider
Schiano’s estoppel argument as it was raised for the first time in
Schiano’s reply brief. “It is well settled that a party cannot argue
an issue in its reply brief that was not preserved in its initial
brief.” Tallahassee Mem’l Reg’l Med. Ctr. v. Bowen, 815 F.2d 1435,
1446 n.16 (11th Cir. 1987). Schiano filed his initial brief on August
6, 2018. Yet Friedman took his allegedly inconsistent position on
July 12, 2018. See Doc. 125 at 1, No. 18-10928-JKO (S.D. Fla.
Bankr.). In addition, the district court considered the homestead
issue in its order, and as Schiano himself points out, Friedman
argued the issue strenuously in the district court. Schiano
therefore could have made his judicial estoppel argument in his
initial brief. That Friedman pressed the homestead issue in his
response brief did not “open the door,” as Schiano argues, for him
to introduce evidence of separate proceedings in his reply.

18a

Accordingly, Schiano’s
“unimpeached.”

evidence

was

not

Nevertheless, that Schiano plainly knew of the
lawsuit in January of 2017 does not obviate the need
for proper service. Although service of process is about
notice, even defendants who otherwise acquire notice
still have a right to be properly served. Cf. McDaniel v.
FirstBank Puerto Rico, 96 So. 3d 926, 928 (Fla. 2d
DCA 2012) (quoting Shurman, 795 So. 2d at 954)
(“Because of the fundamental constitutional
implications of service of process, ‘statutes governing
service of process are to be strictly construed and
enforced.’”). But the district court did not solely rely on
Schiano’s knowledge of the lawsuit. The court was
entitled to credit the process server’s affidavit and the
documentary evidence against Schiano, and it was
allowed to discredit Schiano’s testimony, especially in
light of its viewing it firsthand. See Anderson, 470 U.S.
at 575. It analyzed the record and concluded Schiano
did not carry his heavy burden of rebutting the facially
valid return of service with clear and convincing
evidence.14
The district court’s judgment is not void, and we
therefore affirm the district court’s denial of Schiano’s

14

The district court erroneously stated, offhand, that
Schiano did not contest Skripova’s status as a co-resident, a point
on which Schiano spends three pages of his initial brief. But the
error is meaningless because the district court considered the
other evidence and concluded that Schiano did, in fact, reside at
3840—which would have made him Skripova’s co-resident.

19a

Rule 60(b)(4) motion.
III.
Schiano also contends the district court erred in
not finding good cause to excuse his default. He
contends the district court should have applied Rule
55(c) instead of Rule 60(b)(1).
A.
“We review the district court’s denial of a Rule
60(b)(1) motion to set aside a default judgment for
excusable neglect for an abuse of discretion.”
Architectural Ingeneria, 788 F.3d at 1338. We also
review for abuse of discretion a denial of a motion
under Rule 55(c). See Compania Interamericana
Export-Import, S.A. v. Compania Dominicana de
Aviacion, 88 F.3d 948, 951 (11th Cir. 1996).
B.
1.
Schiano contends the district court should have
construed his March 23, 2017, email as a motion to
vacate the judgment. If the court had done so, the
argument goes, the “motion to vacate” would have been
entered before the court’s final judgment on damages.
Thus, the court would have evaluated the motion
under Rule 55(c), whose “good cause” standard is more
lenient than Rule 60(b)’s “excusable neglect”

20a

standard.15
Schiano relies chiefly on Dassault Systemes, SA
v. Childress, 663 F.3d 832 (6th Cir. 2011), where the
Sixth Circuit explained that its precedents require a
court to determine damages before entering a final
default judgment. Id. at 839. Here, the district court
clerk entered a default on January 6, 2017, and the
district court entered its final default judgment on
liability, along with its permanent injunction, on
15

Nevertheless, Schiano relies heavily on our unpublished
decision in Safari Programs, Inc. v. CollectA International
Limited, 686 F. App’x 737 (11th Cir. 2017), a Rule 60(b) case.
There, we explained that “the district court abused its discretion
by failing to consider all relevant factors and by failing to properly
evaluate the factors that it did consider.” Id. at 744. We found that
the district court failed to consider relevant precedent. Id. Here,
the district court evaluated all relevant Rule 60(b) factors, and
even distinguished the Safari opinion in denying Schiano’s Rule
59(e) motion. Our own review convinces us that Safari is indeed
distinguishable. For instance, in Safari, the “foreign defendant
unfamiliar with litigation in United States courts” sent a letter to
the court one day after the clerk entered a default. Id. at 741, 745.
Here, Schiano—a domestic defendant who had long been aware of
the litigation—sent an email two and a half months after the clerk
entered the default. Cf. Sloss Indus. Corp. v. Eurisol, 488 F.3d
922, 935 (11th Cir. 2007) (“The longer a defendant—even a foreign
defendant—delays in responding to a complaint, the more
compelling the reason it must provide for its inaction when it
seeks to set aside a default judgment.”). More importantly, in
Safari, the defendant “contended that the judgment should be
reopened . . . because [the plaintiff’s] filing of a duplicative lawsuit
against [the defendant] . . . was confusing and led [the defendant]
to believe that [the plaintiff] had abandoned the first case and
intended to proceed with the second.” 686 F. App’x at 741. Nothing
similar happened here.

21a

January 17, 2017. But the judgment determining
damages and fees was not entered until April 28,
2017—more than a month after Schiano’s March 23,
2017, email.
We need not decide which of the district court’s
judgments was truly “final” so as to trigger Rule 60(b).
Nor do we need to decide whether the district court
abused its discretion in declining to consider the
March 23, 2017, email as a motion to vacate. The
reason is simple: Schiano fails to show good cause
under Rule 55(c), let alone excusable neglect under
Rule 60(b). Cf. Vanderberg v. Donaldson, 259 F.3d
1321, 1326 (11th Cir. 2001) (“We [] need not decide
whether Rules 15(a) and 59(e)’s more lenient standard
applies to this pro se Rule 60(b) motion: Plaintiff
cannot even satisfy the Rule 15(a) abuse of discretion
standard, much less the more stringent Rule 60(b)
standard.”).
Before we address that point, we note some
problems with Schiano’s email-as-a-motion theory.
“[A]lthough we are to give liberal construction to the
pleadings of pro se litigants, ‘we nevertheless have
required them to conform to procedural rules.’” Albra
v. Advan, Inc., 490 F.3d 826, 829 (11th Cir. 2007)
(quoting Loren v. Sasser, 309 F.3d 1296, 1304 (11th
Cir. 2002)). An ex parte email sent directly to a district
judge is not an accepted method of filing a motion
under Rule 5 of the Federal Rules of Civil Procedure or
under Rule 5.1 of the Local Rules of the United States
District Court for the Southern District of Florida.
Indeed, Rule 5(a)(1)(D) of the Federal Rules of Civil
22a

Procedure requires motions, except those that may be
validly heard ex parte, to be served on every party in
a case. Moreover, the March 23, 2017, email cannot be
interpreted as a “motion” on behalf of the corporate
defendants because it is well settled that corporations
may appear only through attorneys. See Osborn v.
Bank of U.S., 22 U.S. (9 Wheat.) 738, 830 (1824) (“A
corporation, it is true, can appear only by attorney....”);
accord Szteinbaum v. Kaes Inversiones y Valores, C.A.,
476 So. 2d 247, 248 (Fla. 3d DCA 1985) (“It is well
recognized that a corporation, unlike a natural person,
cannot represent itself and cannot appear in a court of
law without an attorney.”).
The district court stated that “the Court
informed [Schiano] following his email that the
corporate Defendants could not file responses without
representation.” Schiano refers to the district court’s
characterization as “a blatant misstatement of fact.” In
support of this truculent assertion, Schiano
emphasizes his testimony that the clerk’s office, not
the judge, told him the corporate defendants needed to
be represented. Schiano suggests that it is somehow
significant that the courthouse staff and not the
district judge told him that the corporate defendants
must be represented. Regardless, because Schiano
does not contest he had been expressly warned, we are
not persuaded.
2.
Nevertheless, even if we were to conclude the
district court abused its discretion in not construing
23a

Schiano’s email as a motion to vacate, Schiano still
would not prevail on such a motion because he fails to
demonstrate good cause.
Under Rule 55(c), a district “court may set aside
an entry of default for good cause . . . .” “We recognize
that ‘good cause’ is not susceptible to a precise
formula, but some general guidelines are commonly
applied. Courts have considered whether the default
was culpable or willful, whether setting it aside would
prejudice the adversary, and whether the defaulting
party presents a meritorious defense.” Compania
Interamericana, 88 F.3d at 951 (citation omitted). “[I]f
a party willfully defaults by displaying either an
intentional or reckless disregard for the judicial
proceedings, the court need make no other findings in
denying relief.” Id. at 951–52.
First, Schiano has not demonstrated he had a
meritorious defense.16 Schiano continues to insist on
16

The parties argue over whether truth is an absolute
defense to defamation under Florida law. Florida’s Constitution
provides, “In all criminal prosecutions and civil actions for
defamation the truth may be given in evidence. If the matter
charged as defamatory is true and was published with good
motives, the party shall be acquitted or exonerated.” Fla. Const.
art. 1 § 4 (emphasis added). Florida courts, as we have previously
noted, have interpreted this provision to mean that truth is not an
absolute defense in a defamation action; “good motives” are also
required. Finch v. City of Vernon, 877 F.2d 1497, 1504 (11th Cir.
1989) (“In Florida, truth is not always an absolute defense to
defamation. In order to avoid liability, a ‘good motive’ must also
be shown.” (quoting Lewis v. Evans, 406 So.2d 489, 492 n.2 (Fla.
2d DCA 1981)); see also id. (“Armstrong does not assert that the

24a

appeal that he had a valid truth defense to the
defamation claim. Yet he supports this assertion by
citing only to contested documentary evidence,
including attachments to Friedman’s complaint—items
the district court expressly found defamatory as a
matter of fact. An appellant “cannot establish a
meritorious defense simply by pointing to an alternate
interpretation of [] testimony.” In re Worldwide Web
Sys., 328 F.3d at 1296–97. It follows that an appellant
cannot establish a meritorious defense simply by
pointing to factual evidence already considered and
rejected by the district court. There must be some
analysis demonstrating why the district court erred.
Such analysis is absent here. The district court
correctly concluded that Schiano failed to make the
required “affirmative showing of a defense that is
likely to be successful.” Doc. 108 at 14 (quoting In re
Worldwide Web Sys., 328 F.3d at 1296).
The district court was also correct in concluding
evidence was insufficient for the jury to conclude he acted with ill
will.”). Schiano responds pointing to an unpublished federal
district court case in which the court opined that “[s]ubstantial
truth is a complete defense to defamation, regardless of the
motives of the defamer. It is a common tenet of First Amendment
law that true statements are inactionable.” Carroll v.
TheStreet.com, Inc., No. 11-CV-81173, 2014 WL 5474061, at *11
(S.D. Fla. July 10, 2014). In light of Finch, the Carroll court
incorrectly remarked that the “good motive” requirement “is not
recognized” by the federal courts. Nevertheless, we need not
resolve this potential constitutional conflict. We simply note that
the district court found Schiano’s “defamation of Plaintiffs was
malicious and committed with the specific intent of causing harm
to Plaintiffs.”

25a

that Friedman would be prejudiced if it set aside the
default judgment. As the court explained in its
November 14, 2017, order, “It has been almost a year
since Plaintiffs filed their Verified Complaint. While
Defendants were idle, Plaintiffs and the Court devoted
significant time and resources in adjudicating
Plaintiffs’ substantive claims.” The court was,
however, incorrect in stating that the defamatory
websites it had enjoined would necessarily be
reactivated if the default judgment were set aside; the
court could have reinstated its preliminary injunction.
But that issue is tangential to the real prejudice
Friedman would suffer: the cost of relitigating a
matter already decided when Schiano has offered no
new evidence and no excuse for his months-long delay
in failing to appear. Indeed, Schiano still fails to offer
a good reason for his failure to timely appear. Schiano
learned of the lawsuit by January 17, failed to file
anything with the court until March 23, and offered no
reason for the delay. We note that it would be perfectly
reasonable to conclude that Schiano exhibited a
“reckless disregard for the judicial proceedings,” which
would be sufficient on its own to bar him from relief.
See Compania Interamericana, 88 F.3d at 951–52.
Schiano asserts, again relying on Dassault, that
the district court should have resolved any “ambiguity”
in his favor and concluded he learned of the lawsuit on
February 16, 2017, the date of his second record
communication regarding the lawsuit. He does so
notwithstanding the January 17, 2017, email from his
webhost telling him to “remove all sites named in the
court order”—an email to which he responded an hour
26a

later not with “what court order?” but with “I need a
day to open a hosting account . . . . I will email you
when that is complete.” Even accepting Schiano’s
assertion on appeal that he learned of this lawsuit
“[c]irca February 2017”—indeed, even assuming,
arguendo, that he learned of the lawsuit on the last
day of the month—we cannot see why he would need
more than three weeks to contact the court when he
argues so stridently that his livelihood depended on
these websites.
Finally, we concur with the practical concerns
the district court articulated: “Corporate Defendants,
and Schiano in particular, cannot expect to hold [3840]
out to the public to be their legal address—and receive
benefits from doing so— without accepting the
concomitant responsibilities.” “To vacate the
judgments even though Defendants make a hollow
claim that they did not receive mail at their last
known address would be to reward them for failure to
adhere to their obligations.”
cause.

In short, Schiano has failed to demonstrate good
***

As we once remarked in reversing a district
court for setting aside a default judgment:
The district court, in granting the
defendants’ motion to set aside the
default and the default judgment,
27a

provided no reason for granting the
motion other than its belief that the case
ought to be decided on the merits. This is
certainly a noble sentiment; inherent in
the adversary system of justice is the
idea that each side ought to be heard
prior to a court’s entry of final judgment.
However, that same system requires that
the court have the power to compel
parties to appear before it. The threat of
default (and default judgment) is the
court’s primary means of compelling
defendants in civil cases to appear before
the court. If these defaults could be put
aside without cause, the threat of default
would be meaningless, and courts would
lose much of their power to compel
participation by civil defendants.
African Methodist Episcopal Church, Inc. v. Ward, 185
F.3d 1201, 1203 (11th Cir. 1999). This case perfectly
illustrates that point.
The judgment
AFFIRMED.17

17

of

the

district

court

Friedman’s motion to strike is DENIED as moot.

28a

is

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-cv-81975-BLOOM/Valle
MATT FRIEDMAN, et al.,
Plaintiffs,
v.
NICHOLAS SCHIANO, et al.,
Defendants.
DEFAULT FINAL JUDGMENT Re: DAMAGES,
FEES, AND COSTS
THIS CAUSE is before the Court following an
evidentiary hearing held on February 8, 2017,
addressing the issues of the Defendants’ compliance
with this Court’s Preliminary Injunction Order, and
the determination of attorneys’ fees, cost and damages,
including compensatory and punitive. On January 6,
2017, the Court entered an Order, ECF No. [14]
(“Preliminary Injunction”), granting Plaintiffs’ Motion
for Preliminary Injunction against Defendants
NICHOLAS SCHIANO, M&M ENTERTAINMENT,
INC., and BARMITZVAHS.COM, INC. (collectively,
“Defendants”), ECF Nos. [5], [11]. On January 10,
2017, following entry of a Clerk’s Default against
29a

Defendants, ECF No. [11], and Plaintiffs’ Motion for
Entry of Default Judgment, ECF No. [12], the Court
entered an Order, ECF No. [15], requiring Plaintiffs to
advise the Court of whether Plaintiffs were seeking
damages other than attorneys’ fees and costs.1
Plaintiffs filed a Response to the Court’s January 10,
2017 Order, see ECF No. [18], informing the Court
that, in addition to the issuance of a permanent
injunction and an award of attorneys’ fees and costs,
Plaintiffs were seeking “both compensatory damages
and punitive damages in accordance with § 768.72,
Fla. Stat[,]” id. at ¶ 5.
On January 17, 2017, the Court entered final
default judgment and a permanent injunction against
Defendants. See ECF No. [23] (“Injunction”). The Court
reserved jurisdiction to determine the amount of
attorneys’ fees upon Plaintiffs’ attorneys’ submission
of a sworn affidavit in the manner provided for in §
501.2105, Fla. Stat.2 Id. at ¶ 3.

1

With respect to relief, the Plaintiffs’ Verified Complaint
requested the entry of a permanent injunction against Defendants
as well as “a judgment against Defendants for compensatory
damages, interests, costs, attorneys’ fees, and such other and
further relief as this Court deems just and proper.” ECF No. [1] at
12. The Motion for Entry of Default Judgment, however, made no
mention of damages other than attorneys’ fees and costs. See ECF
No. [12] at 6.
2

Plaintiffs filed a Notice of Filing Affidavit of Attorneys’
Fees on January 20, 2017, ECF No. [26], and a Notice of Filing
Supplemental Affidavit of Attorneys’ Fees on March 1, 2017, ECF
No. [39].

30a

On March 2, 2017, the Court held an
evidentiary hearing. See ECF Nos. [32], [40], [41].
Notice was properly given to Defendants and neither
Defendant appeared. At that hearing, Plaintiffs
provided evidence concerning the determination of
attorneys’ fees and costs and damages.3 The Court
having reviewed the record and Plaintiffs’
Supplemental Memorandum, conducted an evidentiary
hearing, accepted evidence and heard argument from
Plaintiffs’ counsel, it is ORDERED AND
ADJUDGED as follows:
Count I (Slander Per Se)
1. In Count I of the Complaint, ECF No. [1],
Plaintiffs asserted a claim against Defendants for
defamation per se.
2. On January 13, 2017, this Court entered a
Final Default Judgment in favor of Plaintiffs against
Defendants, establishing Defendants’ liability on
Count I.
3. On March 2, 2017, this Court conducted an
evidentiary hearing to determine the amount of
damages to be awarded to Plaintiffs (the “Damages
Hearing”). At the Damages Hearing, Plaintiff Matt
Friedman testified at length regarding Defendants’

3

The Court also heard oral argument on Plaintiffs’
Motion for Contempt, Sanctions, and Order Compelling, Nicholas
Schiano to Appear, In Person, before the Court to Show Cause,
ECF No. [25].

31a

defamatory misconduct and the damage that it has
caused to him and his company, Plaintiff Scale Media,
Inc. In addition to live testimony, Plaintiffs admitted
into evidence voicemails from Defendant Nicholas
Schiano, documentary evidence (including, inter alia,
copies of thirty (30) webpages on which Defendants
posted defamatory statements), and an affidavit
describing the damage caused to Plaintiffs.
4. Based upon the evidence submitted, this
Court finds that Defendants committed no less than
sixty-four (64) separate instances of defamation per se,
including (a) posting of defamatory statements on at
least thirty (30) webpages, and (b) defaming Plaintiffs
to at least thirty-four (34) individuals.
5. The Court finds that based upon the evidence
presented – including, inter alia, a review of the
defamatory postings themselves, Defendant Nicholas
Schiano’s own statements in recorded voicemails,
email correspondence from Defendant Nicholas
Schiano, and live testimony from Plaintiff Matt
Friedman – that Defendants’ defamation of Plaintiffs
was malicious and committed with the specific intent
of causing harm to Plaintiffs. Moreover, based on such
evidence, this Court finds that Defendants’ defamation
has caused significant damage to Plaintiffs’ personal,
business, and professional reputations, has caused
Plaintiffs to lose significant business, and has caused
irreparable harm to Plaintiffs’ personal and
professional reputations.
6. The Court finds that, while the full extent of
32a

the harm caused by Defendants’ defamation cannot be
reasonably ascertained, each of the sixty-four (64) acts
of defamation has caused at least $10,000.00 in actual
damages to Plaintiffs.
7. Accordingly, Plaintiffs shall recover from
Defendants, jointly and severally, compensatory
damages in the amount of $640,000.00.4
8. This Court further finds that Plaintiffs have
presented clear and convincing evidence that
Defendants are each personally guilty of intentional
misconduct sufficient to support an award of punitive
damages. Moreover, inasmuch as this Court finds that
at the time that Defendants harmed Plaintiffs by
defaming them, Defendants had the specific intent to
harm Plaintiffs, there is no cap on the amount of
punitive damages awardable to Plaintiffs pursuant to
§768.73, Fla. Stat.
9. This Court finds that, based upon the amount
of compensatory damages awarded herein, the
reprehensibility of Defendants’ misconduct, the
penalties authorized and imposed in comparable

4

The Court notes that Plaintiffs have not, in either their
written submissions or through the evidence presented at the
Damages Hearing, made a distinction as to compensatory
damages suffered by Plaintiff Matt Friedman and compensatory
damages suffered by Plaintiff Scale Media, Inc.—a company
owned and operated by Plaintiff Matt Friedman—or indicated
that such a distinction is both appropriate and determinable.

33a

cases,5 and evidence submitted regarding Defendants’
financial status, that punitive damages in the amount
of $640,000.00 is reasonable and appropriate to
achieve the purposes of punishing and deterring
Defendants.
10. Accordingly, Plaintiffs shall recover from
Defendants, jointly and severally, punitive damages in
the amount of $640,000.00.
11. As such, Plaintiffs MATT FRIEDMAN and
SCALE MEDIA, INC., c/o DuBosar Sheres, P.A. 1800
North Military Trail, Suite 470, Boca Raton, Florida,
33431 shall recover a total of $1,280,000.00 from
Defendants, NICHOLAS SCHIANO, individually, and
d/b/a
HOTWIREMEDIA.COM,
M&M
ENTERTAINMENT, and BARMITZVAHS.COM whose
address is 3840 NE 17th Avenue, Oakland Park, FL
33334, M&M ENTERTAINMENT, INC. whose address
is c/o 3840 NE 17th Avenue, Oakland Park, FL 33334,
and BARMITZVAHS.COM, INC., whose address is c/o
3840 NE 17th Avenue, Oakland Park, FL 33334,
jointly and severally, which sum shall bear interest at
the statutory rate (currently 4.97% per annum), for
which let execution issue.
Count II (Violation of Florida’s Unfair
and Deceptive Trade Practices Act)
12. In Count II of the Complaint, Plaintiffs
5

See, e.g., Lawnwood Medical Center, Inc. v. Sadow, 43
So.3d 710 (Fla. 4th DCA 2010).

34a

asserted a claim against Defendants for Violation of
Florida’s Unfair and Deceptive Trade Practices Act
(“FDUTPA”).
13. On January 13, 2017, this Court entered a
Final Default Judgment in favor of Plaintiffs against
Defendants, establishing Defendants’ liability on
Count II.
14. As mentioned, on March 2, 2017, this Court
held the Damages Hearing to determine the amount of
damages to be awarded to Plaintiffs. At the Damages
Hearing, Plaintiff Matt Friedman testified at length
regarding Defendants’ violations of FDUTPA and the
damage that it has caused to him and his company,
Plaintiff Scale Media, Inc. In addition to live
testimony, Plaintiffs admitted into evidence voicemails
from Defendant, Nicholas Schiano, documentary
evidence (including, inter alia, copies of thirty (30)
webpages which evidenced Defendants’ violations of
FDUTPA), an affidavit describing the damage caused
to Plaintiffs, as well as affidavits of attorneys’ fees.
15. This Court finds that based upon the
evidence presented, Defendants violated FDUTPA no
less than sixty-four (64) times.
16. As Plaintiffs point out, however, the 64
FDUTPA violations committed by Defendant under
Count II are one and the same with 64 separate
instances of defamation per se committed by
Defendant under Count I. See, e.g., ECF No. [42]
(“Defendant’s defamatory conduct also constituted a
35a

violation of FDUTPA.”). Thus, providing for
compensatory damages under Count II would, in
effect, allow Plaintiffs to recover the same
compensatory damages twice.
17. Accordingly, in order to prevent double
recovery in this case, the Court finds that Plaintiffs
are not entitled to compensatory damages under Count
II, notwithstanding the finding of Defendant’s liability
thereunder. See generally E.E.O.C. v. Waffle House,
Inc., 534 U.S. 279, 297 (2002) (“[I]t goes without saying
that the courts can and should preclude double
recovery by an individual.”) (citations and internal
quotation marks omitted).
Attorneys’ Fees and Costs
18. Moreover, on January 13, 2017, this Court
entered the Final Default Judgment which awarded
Plaintiffs entitlement to attorneys’ fees and costs in
accordance with §501.2105, Florida Statutes and
required Plaintiffs’ counsel to submit a sworn affidavit
as required by §501.2105, Florida Statues. Plaintiffs’
counsel submitted the required affidavit establishing
that Plaintiffs incurred attorneys’ fees and costs in the
amount of $30,535.08 in connection with pursuing this
claim. This Court finds that Plaintiffs complied with
the requirements of §501.2105, Florida Statutes and
that the attorneys’ fees and costs incurred by Plaintiffs
are reasonable. Accordingly, pursuant to §501.2105,
Florida Statutes, Plaintiffs are also entitled to recover
from Defendants, jointly and severally, reasonable
attorneys’ fees in the amount of $30,535.08.
36a

As such, Plaintiffs MATT FRIEDMAN and
SCALE MEDIA, INC., c/o DuBosar Sheres, P.A. 1800
North Military Trail, Suite 470, Boca Raton, Florida,
33431 shall also recover $30,535.08 from Defendants,
NICHOLAS SCHIANO, individually, and d/b/a
HOTWIREMEDIA.COM, M&M ENTERTAINMENT,
and BARMITZVAHS.COM whose address is 3840 NE
17th Avenue, Oakland Park, FL 33334, M&M
ENTERTAINMENT, INC. whose address is c/o 3840
NE 17th Avenue, Oakland Park, FL 33334, and
BARMITZVAHS.COM, INC., whose address is c/o 3840
NE 17th Avenue, Oakland Park, FL 33334, joint and
severally, which sum shall bear interest at the
statutory rate (currently 4.97% per annum), for
which let execution issue.
DONE AND ORDERED in Miami, Florida, on
this 27th day of April, 2017.
/s/
BETH BLOOM
UNITED STATES DISTRICT JUDGE
cc:
Counsel of Record
Nicholas Schiano
3840 NE 17th Avenue
Oakland Park, FL 33334

37a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
[Letterhead]
August 14, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-10742-GG
Case Style: Matt Friedman, et al v. Nicholas Schiano, et al
District Court Docket No: 9:16-cv-81975-BB
The enclosed order has been entered on petition(s) for
rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and
Eleventh Circuit Rule 41-1 for information regarding
issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joe Caruso, GG/lt
Phone #: (404) 335-6177

38a

REHG-1 Ltr Order
Petition Rehearing

IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10742-GG
MA TT FRIEDMAN, an individual,
SCALE MEDIA INC., a New York corporation,
Plaintiffs - Appellees,
versus
NICHOLAS SCHIANO, d.b.a. HotWireMedia.com,
M&M ENTERTAINMENT, INC.,a Florida corporation,
BARMITZVAHS.COM, INC.,
a Florida corporation,
Defendants - Appellants.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION FOR REHEARING EN BANC
BEFORE: MARTIN, NEWSOM, and BRANCH, Circuit
Judges.
PER CURIAM:
No judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc, the Petition for Rehearing En Banc is DENIED.
The Petition for Rehearing En Banc is also treated as
39a

a Petition for Rehearing before the panel and is
DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE

40a

APPENDIX D
to Judge Beth Bloom Matthew Friedman vs Nicholas
Schiano # 16-cv-81975-BLOOM/Valle Nicholas Schiano
to:
Bloom
03/23/2017 03:03 PM
Cc:
Nicholas Schiano
Hide Details
From: Nicholas Schiano <mnmparty@me.com>
To: Bloom@flsd.uscourts.gov
Cc: Nicholas Schiano <mnmparty@me.com>
History: This message has been forwarded.
3-23-17
Judge Beth Bloom
Wilkie D. Ferguson United States Courthouse
400 North Miami Avenue, Chambers 10-2
Miami, Florida 33128
United States Courthouse
299 East Broward Boulevard, Chambers 207B
Fort Lauderdale, Florida 33301
Dear Beth Bloom,
# 16-cv-81975-BLOOM/Valle
EFC No. [25] (the "Motion")
EFC No. [14] ("Preliminary Injunction")
41a

I did not receive notice of this law suit. I do not live at
my home of record. I rent my home to 3 different
strangers. I do not receive mail at my home. I was
never contacted by any attorney, and only heard about
this lawsuit from NetWorkSolutions.com when I called
to ask why my HotWireMedia.com email did not work.
I cannot comply with the courts "Preliminary
Injunction". I do not have access to some of the online
content in question & the court cannot prevent me
from defending myself online with facts about
Matthew Friedman past slander in the future.
The documents I posted online concerning Matthew
Friedman's fraud, scam, slander and threat are real
and true, factual and legitimate, not assault and
slander. Matthew Friedman has committed slander on
me, not me on him.
I would think it is normal procedure for the Plantiff's
attorney to contact the Defendant by phone to make
him or her aware of a pending law suit, to open a
dialog that may lead to a settlement agreement. That
never happened. Matthew Friedman and his attorney's
are manipulating you and your court in my absence in
a continued effort to put my M&M Entertainment Bar
Mitzvah Entertainment company out of business by
shutting my Mitzvah websites, as retaliation for the
factual and truthful HotWireMedia.com Matthew
Friedman Fraud web page online since 2009.
Both Matthew Friedman with his false online and
email Child Molester accusations against me, and now
42a

you with your "Preliminary Injunction" has put me
and M&M Entertainment / BarMitzvahs.com almost
out of business, and at an extreme financial hardship.
I am unable afford an attorney.
Several additional websites including
BarMitzvahs.com was added to this injunction, and
ordered taken offline. BarMitzvahs.com had a link on
it
that
said
"Matthew
Friedman
WorldVendorDirectory.com Fraud", and that link did
not
work.
Matthew
Friedman
WorldVendorDirectory.com Fraud is a true statement,
not slander. BarMitzvahs.com should not be included
in the "Preliminary Injunction". I have since deleted
that link. I have access to edit all my websites offline.
www.mnmentertainment.com was taken offline today,
and there was no Matthew Friedman link on that site.
www.mnmentertainment.com should not be included
in the "Preliminary Injunction"
As a HotWireMedia.com employee Matthew Friedman
committed credit card fraud by stealing my clients
credit card details and charging those credit cards
using a fraudulent "copy cat" business called
WorldVendorDirectory.com & PlanningForEvents.com.
As the HotWireMedia.com owner, I produced a
HotWireMedia.com webpage for Great Neck NY
detectives outlining the Matthew Friedman credit card
fraud to eliminate me as the suspect, and to do my
part to put an end to the Matthew Friedman credit
card fraud. New York detectives used this "Matthew
Friedman Fraud Page" to investigate the
43a

HotWireMedia.com credit card fraud, and concluded
Matthew Friedman did commit credit card fraud, and
victimized HotWiremedia.com clients and my
company. HotWireMedia.com didn't survive the
Matthew Friedman credit card fraud scandal. The
Matthew Friedman HotWireMedia.com/fraud webpage
that you ordered taken offline was a true and factual
account of a cybercrime conspiracy committed by
Matthew Friedman. The content added to the
HotWireMedia.com/fraud webpage last year is also
true and factual. This online document used by NY
detectives is not slander or assault. If I had my day in
court I would of proved that.
I have been in the South Florida Bar & Bat Mitzvah
entertainment business since 1996. (M&M
ENTERTAINMENT) My success has always depended
on my reputation and clients recommendations. Since
Matthew Friedman started his "Child Molester
Slander Campaign" against M&M Entertainment and
I in 2009, I have not been able to counter his false
accusation other than to make the public aware of
who, how and why this false CHILD MOLESTER
rumor is on the internet about me, and talked about on
Mitzvah Facebook groups. Whenever I receive
confirmation that a potential client heard about this
Child Molester accusation, I refer them to the
HotWireMedia.com fraud webpage. (at least I did
before you ordered that site be taken down) Matthew
Friedman also emailed my Mitzvah clients telling
them I am a Child Molester. (Mr. Friedman copied my
client email address' from thank you letters on
BarMitzvahs.com)
44a

The HotWireMedia.com Matthew Friedman Fraud web
page outlines the extent Matthew Friedman went
through in 2009, and continues to go through in 2017,
to lie, threaten and conspire to commit multiple forms
of fraud and slander against me and my company. An
associate of Matthew Friedman recently called my cell
phone threatening me with physical violence. This
recorded voicemail is yet another reason to document
this slander and threat online… in case I was
murdered.
Since being notified of this law suit I have made
arrangements to receive my mail at my home.
Yesterday I received an ORDER ON MOTION FOR
CONTEMPT AND SANCTIONS from the court stating
I am in violation of an injunction, and will be fined
$1,000 a day if I do not comply by March 31.
The following links are listed as a post I am ordered to
delete:
II. DISCUSSION
a. www.MatthewFriedmanScam.blogspot.com
b. www.MattFriedman.blogspot.com
c.https://www.facebook.com/groups/
1045281285580757/
d. all Matthew Friedman posts on my Facebook
page: www.facebook.com/vj.n.fish

45a

e. www.facebook.com/matthewfriedmannewyork
f. 4 postings on complaintsboard.com:
g. www.mnmentertainment.com
h. any websites or postings currently online or
in the future.
Judge Bloom,
The complaintsboard.com posts are not slander. The
complaintsboard.com posts are the HotWireMedia.com
fraud alert to my clients, and to Great Neck New York
detectives in 2009. You need a login and password to
edit that content, if that is even possible (it is not my
site). I cannot possibly retrieve the login and password
without email access. The only way I can use my many
email address since 2009 is if you issue a court order
to networksulutions.com, to unlock my domains, and
email.
My Facebook pages do contain previous posts (before
this law suit was filed, and not after) concerning
Matthew Friedman fraud, slander and threat, all true
and factual. Again, this Facebook content is all I have
left to document the false Child Molester allegations
made by Matthew Friedman, and counter those false
claims by revealing past behavioral and criminal
history and mental judgement of Matthew Friedman.
My reputation will not be saved with a counter suit
against Matthew Friedman, but you can demand
Matthew Friedman delete his online slander he posted
46a

about me:
https://mmentertianmentflorida.wordpress.com/2016
/06/28/mmentertainment-south-florida-ownedby-dangerous-convicted-criminal-anddrug-addictnicholas-schiano/
http://www.ripoffreport.com/reports/mm-entertainme
nt/oakland-parkflorida-33334/mmentertainment-nicholas-schiano-nick-schiano-convict
edcriminal-convicted-criminal-own-1295836
https://www.facebook.com/permalink.php?
story_fbid=280767338969295&id=280758178970211
The court cannot help resurrect whats left of my
reputation & business, and the court cannot stop me
from defending my good name and business reputation
from a mentally ill pathological liar dedicated to my
ruin.
I am requesting an appearance in court and an appeal
to your January 6, 2016 order, EFC NO. [14]
("Preliminary Injunction")
In court I would like to submit documents and make a
verbal argument as to why I have the need and right
to defend myself from Matthew Friedman's online and
email Child Molestor, Rapist and Drug Addict
slanderous accusation, as well as proof the
HotWireMedia.com Matthew Friedman Fraud Alert is
factual and used to investigate Matthew Friedman for
Credit Card fraud and other crimes. I can provide
47a

confirmation from the Nassau County Police
Department that the HotWireMedia.com fraud alert
webpage was used to guide the Matthew Friedman
credit card fraud investigation. I can also provide
witness' that saw and read the paid Matthew
Friedman Facebook ad falsely accusing me of Child
Molestation and Rape. I have never been accused,
arrested or convicted of either.
Thank You
Nicholas Schiano
mnmparty@me.com
954-249-8991

48a

